2311 Douglas Street

@OCKLE

Le g al Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 Nos. 19-431 & 19-454

LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,
Petitioner,

v.
COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,

DONALD J. TRUMP, PRESIDENT
OF THE UNITED STATES, ET AL.,
Petitioners,

v.
COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of April, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE THE GUTTMACHER INSTITUTE
IN SUPPORT OF RESPONDENTS in the above entitled case. All parties required to be served have been served by
third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
M. DUNCAN GRANT*
ALEXANDER L. HARRIS
PEPPER HAMILTON LLP
3000 Two.Logan Square
18th and Arch Streets
Philadelphia, Pennsylvania 19103
215-981-4000
grantm@pepperlaw.com

Counsel for Amicus Curiae
The Guttmacher Institute

*Counsel of Record

Subscribed and sworn to before me this 8th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

= Kepse. 0. Llosa? Ondrae-h, hile

Notary Public Affiant 39673"

ERAL OTARY State of Uisbraska

RENEE J. GOSS
My Comm. Exp. September 8, 2023 |

   

 
   

 

  
SERVICE LIST

Counsel for Respondents State of New Jersey and Commonwealth of Pennsylvania:

Michael J. Fischer

Counsel of Record

Pennsylvania Office of the Attorney General
1600 Arch Street, Suite 300

Philadelphia, PA 19103

(215) 560-2171
mfisher@attorneygeneral.gov

Counsel for Petitioner The Little Sisters of the Poor Saints Peter and Paul Home:

Mark L Rienzi

Counsel of Record

The Beckett Fund for Religious Liberty
1200 New Hampshire Ave. NW, Suite 700
Washington, D.C. 20036

(202) 955-0095

mrienzi@becketlaw.org

Counsel for Petitioners Donald J. Trump, President of the United Sates, et al.:

Noel J. Francisco

U.S. Department of Justice
Room 5616

950 Pennsylvania Ave. NW
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov
